<html>
<title> - NATIONAL SECURITY IMPLICATIONS OF U.S. POLICY TOWARD CUBA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




       NATIONAL SECURITY IMPLICATIONS OF U.S. POLICY TOWARD CUBA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2009

                               __________

                           Serial No. 111-121

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
  64-913 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     TODD RUSSELL PLATTS, Pennsylvania
CHRIS VAN HOLLEN, Maryland           DAN BURTON, Indiana
PAUL W. HODES, New Hampshire         JOHN L. MICA, Florida
CHRISTOPHER S. MURPHY, Connecticut   JOHN J. DUNCAN, Jr., Tennessee
PETER WELCH, Vermont                 MICHAEL R. TURNER, Ohio
BILL FOSTER, Illinois                LYNN A. WESTMORELAND, Georgia
STEVE DRIEHAUS, Ohio                 PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      JIM JORDAN, Ohio
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DENNIS J. KUCINICH, Ohio
                     Andrew Wright, Staff Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 29, 2009...................................     1
Statement of:
    McCaffrey, General Barry, president, BR McCaffrey Associates, 
      former SOUTHCOM Commander, former Drug Czar; Jorge Pinon, 
      energy fellow, Center for Hemispheric Policy, the 
      University of Miami; Rensselaer Lee, senior fellow, Foreign 
      Policy Research Institute; Phil Peters, vice president, 
      Lexington Institute; and Sarah Stephens, executive 
      director, Center for Democracy in the Americas.............    15
        Lee, Rensselaer..........................................    29
        McCaffrey, General Barry.................................    15
        Peters, Phil.............................................    38
        Pinon, Jorge.............................................    22
        Stephens, Sarah..........................................    72
Letters, statements, etc., submitted for the record by:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, prepared statement of..........................     8
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, prepared statement of.................    12
    Lee, Rensselaer, senior fellow, Foreign Policy Research 
      Institute, prepared statement of...........................    31
    McCaffrey, General Barry, president, BR McCaffrey Associates, 
      former SOUTHCOM Commander, former Drug Czar, prepared 
      statement of...............................................    18
    Peters, Phil, vice president, Lexington Institute, prepared 
      statement of...............................................    41
    Pinon, Jorge, energy fellow, Center for Hemispheric Policy, 
      the University of Miami, prepared statement of.............    24
    Stephens, Sarah, executive director, Center for Democracy in 
      the Americas:
        9 Ways for us to Talk to Cuba & for Cuba to Talk to us...    73
        Prepared statement of....................................   166
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Cuba: A New Policy of Critical and Constructive 
          Engagement.............................................    52
        Prepared statement of....................................     4

 
       NATIONAL SECURITY IMPLICATIONS OF U.S. POLICY TOWARD CUBA

                              ----------                              


                       WEDNESDAY, APRIL 29, 2009

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Flake, Driehaus, 
Fortenberry, and Issa (ex officio).
    Also present: Representatives Cooper and Delahunt.
    Staff present: Catherine Ribeiro, director of 
communications; Mariana Osorio, Aaron Wasserman, and Cliff 
Stammerman; legislative assistants; Anne Bodine, Alex McKnight, 
Brendan Culley, and Steven Gale, fellows; Andy Wright, staff 
director; Elliott Gillerman, clerk; Margaret Costa; intern; 
John Cuaderes, minority deputy staff director; Adam Fromm, 
minority chief clerk and Member liaison; Tom Alexander, 
minority senior counsel; Dr. Christopher Bright, minority 
senior professional staff member; Glenn Sanders, minority 
Defense fellow.
    Mr. Tierney. Good afternoon.
    A quorum being present, the Subcommittee on National 
Security and Foreign Affairs, the hearing entitled National 
Security Implications of U.S. Policy Toward Cuba, will come to 
order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee and the ranking member of the full 
committee be allowed to make opening statements. Without 
objection, so ordered.
    I ask unanimous consent that Mr. Delahunt and Mr. Cooper 
and Ms. Richardson all be allowed to participate in this 
hearing. In accordance with the committee rules, they will only 
be allowed to question the witnesses after all official members 
of the subcommittee have had their turn first. Without 
objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for five business days so that all members of the 
subcommittee will be allowed to submit a written statement for 
the record. Without objection, that is so ordered as well.
    First, let me thank all of you for your patience and 
forbearance. They say the best-laid plans of mice and men 
always go astray. And of course, they timed the voting just at 
the beginning of this hearing, so 25 minutes has gone by, and 
we regret that and apologize for any inconvenience it has made 
for our witnesses.
    We sincerely do appreciate all the help you have given us 
in providing your written statements in advance, as well as 
your willingness to testify here today.
    At the outset of this hearing, I want to recognize the 
leadership Ranking Member Flake has shown on this very 
important issue. He has been recognized as one of the leaders 
on this issue. He has recognized the need for advancement of 
America's thinking on the subject, and he has been a principal 
sponsor of major related legislation, together with our 
Massachusetts colleague, Bill Delahunt. So thank you for your 
leadership on this.
    President Obama's April 13th announcement lifting 
restrictions on family visits and remittances to Cuba I believe 
is a step in the right direction. I hope it is the first step 
in a long journey. Indeed, the President left open the door to 
further changes when he stated ``We also believe that Cuba can 
be a critical part of regional growth.`` The current U.S. 
policy toward Cuba is anachronistic and unsustainable. It is a 
source of contention between the United States and the rest of 
Latin America, as well as the European Union.
    In the lead-up to the recent Fifth Summit of the Americans 
in Trinidad and Tobago the Costa Rican paper La Nacion observed 
that all of Latin America is asking for an end to Cuba's 
isolation. In today's hearing, the subcommittee aims to 
identify concrete ways in which increased U.S.-Cuba cooperation 
is in our own national security interest, ways it could support 
the safety and security of U.S. citizens, and the nature of the 
threat the United States would face should our interactions 
stagnate or lessen.
    The United States and Cuba have many shared concerns and a 
long history of shared collaboration, such as joint medical 
research that predates the Spanish American war, so-called 
fence talks between Cuban and American soldiers on Guantanamo, 
overflights by U.S. hurricane hunters to predict extreme 
weather and piece-meal partnership between our Coast Guards.
    Most of this cooperation requires nothing more than 
political will to implement it. Increased cooperation in these 
fields could give political leaders in both countries the 
confidence they need to end the 50-year era of mistrust.
    On April 13, 2009, a letter from 12 retired generals and 
admirals to President Obama gave a persuasive argument for 
greater U.S.-Cuba engagement. It stated as follows: ``Cuba 
ceased to be a military threat decades ago. At the same time, 
Cuba has intensified its global diplomatic and economic 
relations with nations as diverse as China, Russia, Venezuela, 
Brazil and members of the European Union. Even worse, the 
embargo inspired a significant diplomatic movement against U.S. 
policy when world leaders overwhelmingly cast their vote in the 
United Nations against the embargo and then visited Havana to 
denounce American policy. It is time to change the policy, 
especially after 50 years of failure in obtaining our goals.''
    These generals and admirals recommend ``renewed engagement 
with Havana in key security issues such as narcotics 
trafficking, immigration, airspace and Caribbean security.'' 
This idea of engagement underlies our current policies in Iran, 
Syria and North Korea, all much graver concerns to the United 
States, where Americans are currently free to travel.
    Experts generally agree that the U.S.' national security 
would be strengthened if Cuba pursued alternatives to 
Venezuelan or Russian influence. Increasing energy trade with 
Cuba would contribute to the U.S.' energy security. It would 
create competition with the export-oriented populist agenda of 
Venezuelan leader Hugo Chavez, while dampening Venezuela's 
efforts to strengthen its regional presence through visible aid 
to Cuba.
    U.S. energy trade could also limit the attractiveness of 
the more assertive foreign policy of Russia and China's 
increased presence in Latin America and investment in Cuba's 
energy segment. Cuba's strategic location and its apparent 
seriousness of purpose in fighting drugs is another strong 
argument for comprehensive U.S.-Cuban cooperation.
    Closer coordination could also help close off trafficking 
routes in the western Caribbean and disrupt ongoing operations 
of South American cocaine mafias. Equally important, Cuba's 
evacuation plans, post-disaster medical support and advanced 
citizen preparedness education programs are well worth 
studying. More than 1,600 Americans died during Hurricane 
Katrina in 2005. The U.S. death toll from Hurricane Ike in 2008 
came close to 100. Cuba's death rate from storms over the same 
period, in contrast, was only about three people per year. Only 
seven Cubans died from Hurricane Ike.
    Hurricane preparedness is one of the few areas where the 
United States and Cuba actually do talk to one another. The 
U.S. National Hurricane Center has a good working relationship 
with its Cuban counterpart, and hurricane hunters based in the 
United States regularly cross Cuba's airspace, with its 
government's permission.
    However, other forms of cooperation with Cuba in hurricane 
response are nearly non-existent. An open exchange of knowledge 
and transfer of technologies could save lives.
    All these factors, then, lead us to the inevitable 
conclusion that talking to Cuba is in our own interest as well 
as in Cuba's interest. Our expert witnesses today will detail 
some steps that we should be taking. President Obama has taken 
an important first step, now let's explore how and when we can 
go further and do better.
    At this point I would like to yield to Mr. Flake for his 
opening remarks.
    [The prepared statement of Hon. John F. Tierney follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Flake. Thank you, Mr. Chairman. Let me start by 
thanking you and the staff for the bipartisan manner in which 
this hearing was prepared. And thank the witnesses, it is a 
great group, I know all of you, and I look forward to the 
testimony. We are sorry for holding you up.
    I will be short here. As we know, the purpose of this 
hearing is to review national security implications of our 
current policy to Cuba. There is no denying, I think by 
anybody, that our current policy toward Cuba has failed to 
achieve the bipartisan goal of regime change. Instead, our 
policy of isolation has turned the island in to what Retired 
General Charles Wilhems has called a 47,000 square mile blind 
spot in our security rear view mirror. We have little to show 
for this policy but restrictions on the freedom of Americans 
and tense regional relations.
    While I have no sympathy for the Castro regime, my views on 
the appropriate direction of U.S.-Cuba policy are well known. I 
support ending the trade embargo, which has given the United 
States a needless black eye in the region for far too long 
without any gains. Along with many in the Cuban-American 
community, I also support lifting of the travel ban for all 
Americans, our best Ambassadors for democracy.
    I congratulate the administration on the recent removal of 
restrictions on Cuban-American travel and remittances. I also 
welcome their willingness to review our current approach to the 
island, perhaps a subject of a future subcommittee hearing, Mr. 
Chairman.
    However, I am also concerned about the continued emphasis 
on reciprocity with respect to changes in U.S.-Cuban relations. 
Rather than allowing the Cuban government to control the pace 
and nature of our bilateral relations, I have long felt that 
the United States must act in a manner consistent with our own 
self-interest, independent of the politics and whims of a 
foreign leader.
    Given the recent emphasis on U.S.-Cuban relations, both 
domestically and within the region, I welcome the opportunity 
presented by this hearing to answer important questions such as 
are there national security liabilities associated with our 
policy of isolation? Given the lack of results of the current 
approach, are these liabilities justified?
    Now, independent of the imminent shift in U.S.-Cuba 
relations, are there bilateral steps that can be taken that 
will improve U.S. national security? Again, Mr. Chairman, I 
thank you for holding this hearing and look forward to the 
testimony.
    [The prepared statement of Hon. Jeff Flake follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you for your remarks.
    We would like to give Mr. Issa, the ranking member of the 
full committee, the opportunity to provide opening remarks as 
well. So please, Mr. Issa, proceed.
    Mr. Issa. Thanks, Mr. Chairman. Chairman-in-waiting is 
always a good title for a ranking member. [Laughter.]
    Mr. Tierney. As long as you wait a long time. [Laughter.]
    Mr. Issa. Thank you, Mr. Chairman. I will be appropriately 
patient.
    Mr. Chairman, I want to thank you for holding this hearing. 
I want to take this opportunity to consider the debate on this 
very important matter and to provide some alternate thinking, 
but not to the extent that some might consider. I do agree that 
we need to review our policy with all of the world's nations, 
including Cuba, on a regular basis. I believe that this 
administration, like all administrations, does need to 
carefully analyze the longstanding policies of previous 
administrations.
    I certainly, for example, would hope that very shortly the 
Taiwan Straits question be answered in the way that it has best 
been answered since at least Richard Nixon.
    But in the case of the 50 years since Fidel Castro toppled 
a corrupt government and replaced it with his own tyrannical 
regime, these true communists, both Fidel and Raul, have 
retained their power by stifling any and all dissent. They have 
imprisoned those who tried to open Cuban society and have 
murdered political opponents. All the while the Cuban people 
have suffered from failed economic conditions and imposed 
communism.
    We are not debating that here today. What we are debating 
is how to best deal with a regime which is best described as 
the Castro Brothers, now in the last years of their lives, 
Fidel no longer running the government on a day-to-day basis, 
but clearly having some role in the decision process. The air 
waves are still not free in Castro's Cuba and will not be as 
long as they remain in power.
    But they cannot remain past the clock that God gives them. 
So whether we see Hugo Chavez' influence in Cuba or North 
Korea's or Russia's, there will be a change. I welcome the 
opportunity today to consider, when that time comes, a little 
before or a little after, being prepared to engage in positive 
dialog with the people of Cuba, being able to end what since 
1962 has been a blight on the Americas, with a failed state, 
failed not just because economically it fails, but because it 
fails to give its own people, some of the best, the brightest 
and the most ambitious, the opportunities they so dearly seek.
    In short, the Castro government is coming to an end and we 
do need to consider today what to do when it ends. Having said 
that, I believe the United States owes no apology for standing 
up against Cuba and its government for many years. I continue 
to believe that we must be prepared, if we cannot reach 
effective transition for the Cuban people, we must be prepared 
to stand up to them as we stand up to North Korea.
    I do note to both the chairman and the ranking member of 
the subcommittee, that we do have travel of Americans to many 
countries, for example, China, which spies on us more than any 
other nation on earth, and which is building a world class navy 
and military and which has already shown an ability to shoot 
down a satellite, and has certainly made it clear that is not 
only their own satellite that could be shot down, is a place in 
which Americans travel and Chinese students come here.
    So Mr. Chairman, this is a mixed opening statement for a 
reason. I want to hear what people have to say. I want to try 
to reconcile the good policy of many years with the future 
policy that may be an opportunity for the American people to 
engage at the right time.
    Last but not least, I would like to make it clear that when 
it comes to General McCaffrey and the question of drugs, I 
stand with all those who want to utilize every tool at our 
disposal to stop drugs. I must, however, note that any 
relationship with Castro's Cuba would have to begin to look at 
the head of their own navy, who stands accused of drug 
trafficking in this country and has not been brought to task 
for that, and other similar situations in which it is believed 
that Castro's Cuba may in fact be part of the problem and not 
part of the solution.
    Mr. Chairman, I thank you very much for calling this 
hearing and yield back my time.
    [The prepared statement of Hon. Darrell E. Issa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much for your comments.
    Now, the subcommittee will receive comments from the panel 
before us here today. I will introduce all of them and then ask 
for testimony, starting at my left and moving across.
    General Barry McCaffrey is a retired four star general, and 
a 32-year veteran of the U.S. Army, during which he served as 
Commander of the U.S. Southern Command [SOUTHCOM]. For 5 years 
after leaving the military, General McCaffrey served as the 
Nation's Cabinet Officer in charge of U.S. drug policy. After 
leaving government service, General McCaffrey served from 2001 
to 2005 as the Bradley Distinguished Professor of International 
Security Studies at the U.S. Military Academy at West Point.
    He continues as an adjunct professor of international 
affairs. He holds a B.S. from West Point and an M.A. from 
American University and told me earlier he is a Massachusetts 
native. That always counts for extra points here.
    Mr. Jorge Pinon is an energy fellow from the University of 
Miami Center for Hemispheric Policy. Prior to his current 
position, he held a variety of senior positions in the energy 
sector, including president and CEO of TransWorld Oil USA, 
president of Amoco, Corporate Development Co. Latin America, 
president of Amoco Oil of Mexico, and president of Amoco Oil 
Latin America, based in Mexico City.
    Mr. Pinon also currently serves as an advisor and a member 
of the Cuba Task Force at the Brookings Institution and the 
Council of the Americas.
    Dr. Rens Lee is president of Global Advisory Services, a 
McLean, VA based consulting firm. From 2002 to 2003, Dr. Lee 
worked as a research analyst at the Congressional Research 
Service. Dr. Lee has performed overseas contract assignments 
for the State Department, the Department of Energy, the World 
Bank, the White House Office of National Drug Control Policy 
and other agencies. These assignments have covered Russia, 
Eastern Europe, Central Asia, the Caribbean and much of South 
America.
    He is currently writing a book on drugs, organized crime 
and the politics of democratic transition in Cuba. Dr. Lee 
holds a Ph.D. from Stanford University.
    Mr. Philip Peters serves as vice president of the Lexington 
Institute, where he has responsibility for international 
economic programs with a focus on Latin America. Prior to 
joining the Lexington Institute, Mr. Peters served in the State 
Department under Presidents Ronald Reagan and George H.W. Bush. 
He has also served as a senior aide in the House of 
Representatives.
    Mr. Peters is an advisor to the Cuba working group that 
formed in January 2002 in the House of Representatives. Mr. 
Peters holds both a B.A. and an M.A. from Georgetown 
University.
    Ms. Sarah Stephens is the executive director of the Center 
for Democracy in the Americas. A long-time human rights 
advocate, Ms. Stephens began her work with Central American 
refugees in Los Angeles in the 1980's, and has since worked 
with a number of human rights and civil rights organizations. 
From 2001 to 2006, Ms. Stephens worked for the Center for 
International Policy before leaving to launch the Center for 
Democracy in the Americans.
    Ms. Stephens has also led dozens of delegations of U.S. 
policymakers, academics, experts and philanthropists to Cuba, 
Chile and Venezuela on fact-finding and research missions.
    Thank you all again for taking your time and making 
yourselves available today and sharing your expertise.
    It is the policy of this subcommittee to swear you in 
before you testify, so I ask you to please stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you, the record will please reflect that 
all the witnesses answered in the affirmative.
    I remind all of you that your full written statement will 
be put in the hearing record. We ask you to try to keep your 
remarks to roughly 5 minutes. Most of you are familiar with the 
lights. With 1 minute left, the amber light will come on. And 
when 5 minutes are up, the red light will go off, and we will 
ask you at that point to wind down.
    So again, thank you. General McCaffrey, would you care to 
start?

STATEMENTS OF GENERAL BARRY McCAFFREY, PRESIDENT, BR McCAFFREY 
ASSOCIATES, FORMER SOUTHCOM COMMANDER, FORMER DRUG CZAR; JORGE 
   PINON, ENERGY FELLOW, CENTER FOR HEMISPHERIC POLICY, THE 
  UNIVERSITY OF MIAMI; RENSSELAER LEE, SENIOR FELLOW, FOREIGN 
    POLICY RESEARCH INSTITUTE; PHIL PETERS, VICE PRESIDENT, 
 LEXINGTON INSTITUTE; AND SARAH STEPHENS, EXECUTIVE DIRECTOR, 
              CENTER FOR DEMOCRACY IN THE AMERICAS

              STATEMENT OF GENERAL BARRY McCAFFREY

    General McCaffrey. Thank you, Mr. Chairman, and to 
Congressman Flake also, and the members of the committee, for 
the opportunity to be here.
    I am also very impressed by the other members of the panel 
and look forward to hearing their testimony. I thank you for 
introducing into the record my own comments, which I wrote in 
consultation with a bunch of people whose judgment I have 
respect for.
    Whenever you talk about Cuba, there are such powerful 
animosities among the political agendas of those discussing the 
situation that I always try and set the baseline of what I 
actually think about Cuba. There are six quick observations, 
one of which is, I understand Cuba as a failing Marxist 
dictatorship. Second, that it is locked in a revolution that, 
essentially since 1962, has had some difficulty adapting to the 
globalization and the movement of the world around it.
    Third, that their economy is a disaster. And in the short 
term, they are being propped up by Venezuelan oil and dollars 
out of the Chavez regime. But their bigger problem is that they 
are running an artificial, centralized, under-resourced economy 
where the true creative spirit of the Cuban people has been 
suppressed.
    Fourth, I understand there is no freedom of assembly, 
speech, press, unions, where to live, no real choices. When you 
see a lot of these refugees coming out of Cuba, it is not just 
economic opportunity in Florida or Louisiana or Mississippi or 
Texas they are seeking, they are looking for freedom, the same 
reasons our grandparents came here.
    Fifth observation, at the end of the day, the real power in 
Cuba is unquestionably held in the hands of the two Castro 
brothers. And indeed, I think Fidel recently has stepped on 
Raul Castro's sort of grudging attempts to expand the nature of 
the debate.
    Behind the power of the Castro brothers is the Army and the 
Interior Ministry. There are six three star generals and one 
four star general in the military, Raul being the four star 
general. All seven of them are in their late 60's or 70's. They 
will be gone, along with much of the leadership of Cuba, in the 
coming 5 years.
    And then finally, I think when you look at the current 
Cuban leadership, to some extent, you are looking at the Soviet 
Union in the 1980's. It is the calm before the storm. The 
question is, what do we do in the first term of the Obama 
administration to make this thing come out better.
    Congressman Flake I think said it in a very different way, 
and I agree with his comment that to some extent, U.S. policy 
has failed and we have left U.S. policy in the hands of the 
Cubans. It is a very interesting dilemma. There is no question 
we lack influence. When I was down there, I spent 12 hours with 
the Castro brothers, acting as a professor at West Point on a 
visit a couple years after 9/11. It was clear to me in my 
subsequent dialog with the 40 somethings of the Cuban 
Government that they are smart young people out there. They are 
bilingual, they have traveled, they have ideas. We don't know 
who they are and we are not engaged with them. We have 
truncated and minimized our access to that regime.
    Another observation, if I may. It seems to me 
unquestionable that Cuba is of little threat to U.S. national 
interests, certainly U.S. national security interests. Also, I 
think this is a problem of modest importance to U.S. foreign 
policy goals. In fact, although the Cubans wake up in the 
morning thinking about little else than the injustice and the 
opportunity the United States represents to them, on the 
contrary, in the United States, I don't think we give it one 
bit of thought. It just has not been central to our concerns, 
even in the Caribbean region where we have seen other actors 
with energy and leadership playing such a dramatic role, 
certainly including Puerto Rico as a prime mover of 
modernization in the region.
    I think that at the end of the day, the saddest comment I 
would make is I think the Cuban leadership is stuck. I cannot 
imagine Fidel Castro or Raul in fact relenting and negotiating 
away some aspects of the revolution. They are not going to do 
it. I think they are worried about their families, their place 
in history. They understand the time clock is running out on 
them.
    And I say that because I worry that the Obama 
administration, which has done, I think, some incredibly smart 
things, opening the dialog, acting in such a gracious and open 
manner at Trinidad and Tobago, going to Mexico, sending the 
Secretary of State to the region, eliminating some restrictions 
on travel and remittances. Having said that, I think they will 
be under great pressure to explain changes in terms of 
reciprocity. What did we get back from them? Did they release 
300 political prisoners in return for something we would do?
    I don't think they are going to do anything for us. And 
indeed, I would disengage U.S. foreign policy from trying to 
get something back in the coming year or two. There are three 
obvious things we ought to do, one of them has been mentioned 
already. We ought to lift the economic embargo and allow 
American citizens free transit to Cuba. I think that will be 
the greatest benefit to the Cuban people imaginable in terms of 
economic opportunity, new ideas, products, political thinking.
    Second, we ought to formalize coordination on law 
enforcement institutions between the Cuban government and the 
American Government. I actually hadn't heard of the accusation 
against the Navy chief. It is probably not central. I do not 
believe the Cuban government is part of an international 
conspiracy on drug smuggling. I think there are remnants of 
communist morality there. They are worried about their own 
kids. They have lots of drugs floating around Cuba that are 
causing problems among their own young people and corrupting 
their own institutions of government. But we ought to cooperate 
not just on drugs but also human smuggling and other 
international concerns such as terrorism.
    Then finally, it seems to me the U.S. Government ought to 
end opposition to Cuban participation in Western Hemisphere or 
multinational fora to include the Organization of American 
States, Summit of the Americas, etc. Through engagement, we can 
move this process along. We are going to have a terrible 
challenge in Cuba. I liken it to East Germany. That problem 
took a generation to begin to solve. And I think the same thing 
is going to happen in Cuba.
    So I am all for dramatic, sudden initiatives on the part of 
the Obama administration to directly engage the Cubans.
    Thanks very much for allowing me to offer these ideas, and 
I look forward to responding to your own questions.
    [The prepared statement of General McCaffrey follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, General. We appreciate your 
remarks.
    Mr. Pinon.

                    STATEMENT OF JORGE PINON

    Mr. Pinon. Thank you, Mr. Chairman.
    Nearly 2 years ago, under the auspices of the Brookings 
Institution, I was invited to be part of a group of 19 
distinguished academics, opinion leaders and international 
diplomats committed to seeking a strong and effective U.S. 
policy toward Cuba. Under the leadership of Ambassador Carlos 
Pascual and Ambassador Vicki Huddleston, our team of well-known 
experts in the field of U.S.-Cuba relations carried out a 
series of simulation exercises and discussions that have served 
to enhance our understanding of the complex political realities 
of Cuba and the United States.
    By testing the responses of several strategic actors and 
stakeholders through a variety of scenarios, we have identified 
potential catalysts and constraints to political change on the 
island. The end result of our effort was a road map report 
entitled Cuba: A New Policy of Critical and Constructive 
Engagement, which I believe the committee has a copy of.
    Two-thirds of Cuba's petroleum demand currently relies on 
imports, and Venezuela is the single source of these imports 
under heavily subsidized payment terms. This petroleum 
dependency, valued at over $3 billion in 2008, could be used by 
Venezuela as a tool to influence a Cuban government in 
maintaining a politically antagonistic and belligerent position 
toward the United States.
    Cuba has learned from past experiences and is very much 
aware of the political and economic risks and consequences of 
depending on a single source for imported oil. The collapse of 
the Soviet Union 1991 and the 2003 Venezuelan oil strike taught 
Cuba very expensive lessons.
    Raul Castro understands the risks. His recent visits to 
major oil exporters such as Brazil, Russia, Angola and Algeria 
underscore his concerns. A relationship with Brazil would 
provide a balance to Cuba's current dependency, while others 
could bring with it corrupt and unsavory business practices.
    Only when Cuba diversifies suppliers and develops its own 
resources, estimated by the USGS to be at 5.5 billion barrels 
of oil and 9.8 trillion cubic feet of natural gas, will it have 
the economic independence needed in order to consider a 
political and economic evolution.
    Although Cuban authorities have invited U.S. oil companies 
to participate in developing their offshore oil and natural gas 
resources, U.S. law does not allow it. Today, international oil 
companies such as Spain's Repsolo, Norway's Statoil Norsk Hydro 
and Brazil's Petrobras are active in exploration activities in 
Cuba's Gulf of Mexico waters.
    American oil and oil equipment and service companies have 
the capital, technology and operational know-how to explore, 
produce and refine in a safe and responsible manner Cuba's 
potential oil and natural gas reserves. Yet they remain on the 
sidelines because of our almost five-decade old political and 
economic embargo.
    The President can end this impasse by licensing American 
companies to participate in developing Cuba's offshore oil and 
natural gas. In the opinion of legal experts consulted, Mr. 
Chairman, no legislation prevents the President from 
authorizing U.S. oil companies from developing Cuba's oil and 
natural gas reserves.
    The Cuban government, influenced by its energy benefactors, 
would most likely result in a continuation of the current 
political and economic model. If Cuba's future leaders are 
unable to fill the power vacuum left by the departure of the 
old cadre, they could become pawns of illicit drug activities, 
drug cartels, and the United States could face a mass illegal 
immigration by hundreds of thousands of Cubans.
    The Brookings report proposes, Mr. Chairman, as part of a 
phased strategy, a policy that supports the emergence of a 
Cuban state where the Cuban people determine the political and 
economic future of their country through democratic means. To 
achieve this goal, Mr. Chairman, Cuba must achieve energy 
independence.
    In conclusion, Mr. Chairman, if U.S. companies were allowed 
to contribute in developing Cuba's hydrocarbon reserves, as 
well as renewable energy, such as solar, wind and sugar cane 
ethanol, it would reduce the influence of autocratic and 
corrupt government on the island's road toward self-
determination. Most importantly, it would provide the United 
States and other democratic countries with a better chance of 
working with Cuba's future leaders to carry out reforms that 
would lead to a more open and representative society.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pinon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much, Mr. Pinon.
    Dr. Lee.

                  STATEMENT OF RENSSELAER LEE

    Mr. Lee. Thank you, Mr. Chairman.
    My argument today is that Cuba can play a potentially 
pivotal role in controlling the Caribbean drug trade and that 
this reality creates both opportunities and challenges for 
U.S.-Cuban relations. Cuba's geographical location makes it a 
tempting target for international traffickers. The island lies 
only 90 miles from Key West on a direct flight path from 
Colombia's Caribbean coast to the southeastern United States.
    Cuba claims to have seized some 65 tons of drugs in the 
past decade, most of it heading toward the Bahamas and the 
United States. The United States and Cuba have an obvious 
mutual interest in stemming this flow and in preventing 
Colombian and Mexican cocaine kingpins from setting up shop on 
the island. Yet they have not entered into a formal agreement 
to fight drugs, although Cuba maintains such agreements with 
more than 30 other countries. What cooperation exists occurs 
episodically on a case by case basis.
    Washington and Havana need to engage more fully on the 
issue, jointly deploying intelligence and interdiction assets 
to disrupt smuggling networks that operate in the western 
Caribbean. To date, though, Washington has shied away from a 
deeper relationship, fearing that this would lead to a 
political opening and confer a measure of legitimacy upon the 
Castro regime. Yet current strategic realities in the region 
and Havana's evident willingness to engage in such a 
relationship, as well as impending leadership changes in Cuba, 
argue that we should rethink these concerns.
    The cooperative framework that I envisage does not imply 
approval of the Castro regime. It would entail increased U.S. 
law enforcement presence on the island and increased bureaucrat 
to bureaucrat contacts at the working level that might serve as 
a platform for reshaping U.S. relations with Cuba during a time 
of leadership transition.
    Now, Cuba has some history of high level official 
connections to Colombian cocaine exporters. And I describe 
these at some length in my written testimony. But in the past 
20 years, the regime has made considerable effort to distance 
itself from these criminal associations, expanding drug 
cooperation with western and Latin American nations and 
adopting an increasingly prohibitionist approach toward illegal 
drugs at home that includes some of the most draconian anti-
drug legislation anywhere on the planet.
    This incidentally contrasts very sharply with the harm-
reductionist and non-coercive drug control policies espoused by 
some Latin American leaders. Several factors may account for 
this shift: the growing internal market for cocaine and 
marijuana; the need for international acceptance following the 
collapse of the USSR, Cuba's main patron at the time; and a 
perceived juxtaposition of international drug connections and 
pressures for economic and political reform inside Cuba.
    For these reasons and others, a U.S.-Cuban entente against 
the hemispheric drug threat, unthinkable a decade or more ago, 
seems worthy of consideration today, despite vast differences 
in our political systems and the absence of diplomatic ties. In 
any case, we need to look forward and not backward in managing 
relations with that country. The drug threat from Cuba seems 
likely to increase with time as the Castro regime's 
revolutionary order loses its hold and appeal. More opening to 
foreign trade and investment, coupled with liberalization of 
the economy and some loosening of political controls, could 
foster new alliances of convenience between criminally inclined 
Cuban nationals and South American or Mexican drug cartels.
    Interdiction successes in Mexico and resulting shifts in 
drug routes eastward to the Caribbean could aggravate these 
problems, culminating in the emergence of a bastion of 
organized crime and drugs only 90 miles from U.S. shores, an 
outcome I think hardly in the best interests of the United 
States and other countries in the hemisphere.
    Thank you very much.
    [The prepared statement of Mr. Lee follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you, Doctor.
    Mr. Peters.

                   STATEMENT OF PHILIP PETERS

    Mr. Peters. Thank you, Mr. Chairman and Mr. Flake. I want 
to commend you for having this hearing.
    I think that our policy toward Cuba has been an extremely 
ambitious one, but it has also been one that has been very un-
examined. So I think it is a very good thing that Congress look 
piece by piece at this policy, as you are doing here, 
especially when you consider that, for all the changes 
President Obama has made, and they are good changes, the policy 
remains 90 percent that of President Bush. There is a lot to 
examine.
    With regard to the security issues that you bring us here 
to discuss today, I agree with General McCaffrey that I don't 
believe that Cuba represents a security threat to us. I think 
the security issue for us is whether we want to seize the 
opportunity to address some security issues that are regional 
in nature by talking with the Cubans and seeing if it's 
possible to establish or increase our cooperation.
    So I think that it would make sense for the United States 
to talk more intensively with Cuba about migration. We already 
have migration accords with them. But there may be additional 
steps we could take to address issues such as alien smuggling, 
which is a transnational crime. As you know, there are rings of 
unscrupulous alien smugglers that have put people's lives at 
risk, that have killed migrants and that also operate through 
Mexico and complicate our relationship with Mexico and cause 
the Mexican government a great deal of grief.
    We of course should talk more about drug trafficking with 
Cuba. We have limited cooperation with them. In my statement, 
which I would ask that you put in the record, I cite at length 
the assessment of the U.S. State Department that was just put 
out last month, which basically says that our cooperation with 
Cuba works reasonably well and that Cuba is in the habit of 
passing on actionable information when they get it about drug 
shipments passing through their territory.
    We should talk about the environment with Cuba for a very 
simple reason. Take a map, look at where Cuba is thinking of 
drilling, look at where the Gulf Stream goes and see that it 
ends up on the eastern coast of Florida, and take into account 
that area off Florida's coast is the area of greatest 
biodiversity in our marine environment anywhere. An accident in 
Cuba's offshore area where they are going to drill for oil 
becomes our problem within a matter of days. So it is nuts that 
the United States is not talking to Cuba about the normal 
disaster preparedness things that we would do if it were any 
other country.
    Also, I think we should add, or at least explore, military 
relations with Cuba. It makes no sense whatsoever that our 
SOUTHCOM commanders know the leadership of the military 
institutions everywhere in the hemisphere but not that of Cuba. 
Certainly, if you look at the relationship, the military to 
military relationship we have with China, it is not a bowl of 
cherries, it doesn't work perfectly, but it has gone on for 
about two decades with all the incidents that have occurred and 
with the broad differences we have because the idea is to 
establish relationships, to establish an understanding of each 
side's intentions and to work on things such as crisis 
prevention. And certainly without exhausting our imaginations 
too much, it is easy to think of crises that could occur in the 
straits between the United States and Cuba.
    Finally, Mr. Chairman, I was struck by Mr. Issa's opening 
statement. Even thought he has departed the room, I want to 
address myself a little bit to him, because I believe in all 
these initiatives I just stated to you, I believe in them in 
the context of greater engagement. As a Republican, listening 
to him, I hear him expressing some of the doubts and issues 
that come to any Republican's mind, or any American's mind, 
when you think of Cuba. That is a very clear revulsion against 
the human rights practices of the Cuban government, not in a 
political science theory way, but because those practices hold 
down the Cuban people, suppress their creativity and their 
energy and their ability to make a better life for themselves.
    And at the same time, there is a nagging question of 
whether we should engage on a broader sense, as Mr. Issa 
referred, as we do with China. As he said, we allow Americans 
to travel there and we allow Chinese students to come here. But 
he asked the question, well, what would be the right time to 
engage. Well, I would just say this: what time is it in Cuba? 
It is the end of an era in Cuba right now. Our influence is 
low. We were a superpower and we think we can do a lot of 
things.
    But it is a little hard for us to swallow some times, this 
country is so close to us, our influence is very low. Our 
influence is low because our contacts are very low. They are at 
a time now when this generation of the Castros that won the 
revolution, the clock is running out and they are going to be 
leaving. The younger generation, as General McCaffrey referred, 
is in the wings. They know that the system is not a failed 
system, but it is not working. Young people don't have hope. 
The young people that are such a precious resource are 
emigrating and want to emigrate in very large numbers. There is 
severe income inequality that they haven't been able to solve, 
and there is not hope among the younger generation. They don't 
create enough jobs. This younger generation knows they have to 
do something to address those issues, because they will be much 
worse if the current generation doesn't get to them before they 
leave.
    So they have these huge problems hanging, and what is our 
response? Well, we don't really want to connect with the next 
generation. Oh, you want to invite Cuban academics here? Well, 
no, our policy won't allow that. You want to have conferences 
in Cuba? Well, the Treasury Department is going to stop you 
because of what you would spend on that. Our universities want 
to have student exchanges? Well, no, you can't get a license 
for that if it is a 2-week program, it has to be 10 weeks or 
more. High school students? No, they can't go to Cuba.
    All the people-to-people programs, abolished under the Bush 
administration. It is no wonder we have no influence in that 
country, because we don't have contact there. So I would say 
this is a moment, with all respect to his question, of course 
it is the right question to ask when. I would say the time is 
now, because this is a time when, of all times, we should be 
seeking to engage that next generation of Cubans.
    Thank you.
    [The prepared statement of Mr. Peters follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Thank you very much, Mr. Peters.
    In response to your comment, all of your statements and all 
of the other witnesses' statements will be incorporated into 
the record by unanimous consent.
    Mr. Pinon, I noticed that in your written remarks, you 
asked that a report entitled, ``Cuba: A New Policy of Critical 
and Constructive Engagement,'' that was just released last 
week, also be put into the record. If you still wish that to be 
done, with unanimous consent, that will happen.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Tierney. Ms. Stephens, please.

                  STATEMENT OF SARAH STEPHENS

    Ms. Stephens. Thank you, Chairman Tierney, Ranking Member 
Flake and the members of the subcommittee for the opportunity 
to appear before you today.
    I serve as the executive director for the Center for 
Democracy in the Americas. It is a non-profit, non-
governmental, independent organization. Our freedom to travel 
campaign has taken bipartisan delegations with over 60 Members 
of the House and Senate and their professional staffs to Cuba 
since 2001.
    With the prospects for talks between the United States and 
Cuban governments increasing, having a discussion now about how 
engagement can best serve our Nation's security and broader 
interests could not be more timely. Earlier this year, our 
organization published this report, ``The Nine Ways for Us to 
Talk to Cuba and for Cuba to Talk to Us.'' Mr. Chairman, I 
would appreciate having this submitted for the record as well.
    Mr. Tierney. Without objection.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Stephens. Our contributors, who include a former 
combatant commander of SOUTHCOM, a Homeland Security appointee 
from the Bush administration, energy scholars from the James 
Baker Institute at Rice University and authorities on issues 
from migration to academic exchange, all argued this. Rather 
than refusing to engage with Cuba diplomatically, our country 
could best promote our national interest and our values by 
engaging Cuba's government in talks about problems that concern 
us both.
    This report is a direct outgrowth of our organization's 
trip to the island. Our delegations speak to government 
officials, the Catholic Church, civil society, foreign 
embassies and foreign investors, artists, and ordinary people, 
about everything from their private aspirations to their views 
about U.S. policy. These conversations drive home to the 
policymakers the cost of our isolation from the Cuban people in 
powerful and practical ways beyond simple commerce.
    Isolation stops us from working with Cuba on issues we have 
heard about today, like migration and counter-narcotics, that 
lie at the core of our neighborhood security. It prevents our 
diplomats at the U.S. Interest Section from doing what their 
counterparts at foreign embassies do, traveling the island or 
meeting with Cuban officials.
    Many Cubans find our refusal to sit down with their 
government and acknowledge its sovereignty disrespectful to 
them and their country. This isolation from Cuba reduces the 
United States to bystander status, as Phil said, as Cubans are 
seeking to determine their future.
    After these trips, almost every member of our delegations 
asks, why aren't we talking to these people? We don't propose 
talk for its own sake. Instead, experts like those here today 
and the qualified scholars we recruited for our book have 
identified proposals that would allow Washington and Havana to 
work together on issues of concern to both countries. Let me 
highlight just a few of those recommendations.
    On security issues, they urge increased dialog between the 
Cuban armed forces and the U.S. Southern Command; greater 
intelligence sharing to fight drug trafficking; and increasing 
contacts between the DEA, the Marshals Service, Immigration and 
Customs Enforcement and their Cuban counterparts.
    To help with hurricane preparedness and self-defense, they 
suggest allowing Cuban scientists and emergency managers to 
visit the United States and share information on evacuation 
plans, post-disaster medical support and citizen disaster 
preparedness education programs, and permitting U.S. scientists 
and emergency managers to visit Cuba and observe storm 
evaluations in real time.
    On medical research and academic exchange, they advocate 
removing Cuba from the State Sponsors of Terrorism list to 
allow exchange of professionals in health care and research, 
lifting restrictions on educational trips to facilitate medical 
education and including Cuba in the Fulbright Program and the 
Benjamin A. Gilman International Scholarship Program.
    In every case, these recommendations and others in the 
report can offer tangible benefits for both Cubans and 
Americans and improve the prospect that our governments will 
address issues that have divided us for so long.
    Engagement is not a panacea. We know that the differences 
between the United States and Cuba cannot be papered over and 
that the United States has profound disagreements with Cuba 
about how best to advance the ideas of human rights and 
democracy. But the message today is this: if we wait for Cuba 
to capitulate as a precondition for our talking to them, or if 
Cuba waits for us to repeal the embargo before they will talk 
to us, nothing will ever change, and the status quo is 
increasingly harmful to U.S. national and diplomatic interests.
    Mr. Chairman and members of the subcommittee, we need to 
accept these facts and take the initiative, not in leaps and 
bounds, but with small steps on concrete issues where 
cooperation is in our national interest and likely to yield 
real results. The administration appears ready to follow this 
approach, and it is our hope that the ideas, like those in our 
Nine Ways report, will be helpful to them and to this committee 
going forward.
    Thank you.
    [The prepared statement of Ms. Stephens follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Tierney. Thank you very much. Like all the other 
witnesses, your testimony is extremely helpful and we are 
appreciative of it.
    We are going to go into our question and answer period 
here. I would just like to begin by noting that, General 
McCaffrey, in your written remarks, you indicate obviously that 
Cubans will have to define their own political systems and 
determine the pace of transition. You note that outsiders can 
be supportive, and those outsiders include the United States, 
Latin American nations, European Union, non-governmental 
organizations and multi-lateral organizations. But in the end, 
Cubans have to own and be in charge of the process of 
determining their own future political system and rules of 
engagement.
    Given that, who should take the lead? Should it be a 
regional organization? A non-profit organization? An 
international organization? Or a particular country?
    General McCaffrey. Well, it is probably at the heart and 
soul of how we move ahead. It seems to me, back to Congressman 
Flake's opening remarks, that the opening salvo of engagement 
on Cuba ought to be U.S. unilateral decisions. There is a 
series of them, the easiest ones of course being economic 
embargo, people, law enforcement cooperation, that sort of 
thing. Then there are some dramatic moves we could make, some 
of which really don't cost us anything.
    Mr. Castro engaged me for a couple of hours, he wants his 
spies back from Florida. I remember telling him, I said, Mr. 
Castro, I am sure you are very proud of these men and they are 
Cuban patriots and you will get them back eventually when we 
have normalized relations. So at some point, they may be 
another pawn we can throw to Castro that would allow him to 
move ahead.
    It seems to me, however, that the real process of bringing 
Cuba back into the family of the Americas ought to be multi-
national. We ought to go find multiple mechanisms that allow us 
to be one of many engaging with Cuba. And certainly that 
includes the Organization of American States, which indeed 
needs something to develop its own muscle power.
    But then there are obviously international organizations. 
The United Nations itself has several law enforcement 
mechanisms that could serve our purpose on counter-drug 
cooperation. I don't think U.S.-Cuba direct dialog in the 
immediate future is likely to be as effective as going to 
multi-national engagement.
    Mr. Tierney. Thank you very much.
    Mr. Peters, there were great comments about all the 
positive things that could come from re-engaging with Cuba. If 
that re-engagement were actually to take place, are there 
potential negatives we ought to be prepared to deal with should 
things get normalized eventually? Will there be consequences of 
that which will impact the United States in such a way that we 
are going to have to prepare in advance? Immigration being one 
that comes to my mind right away, but that or others?
    Mr. Peters. Well, I don't, Mr. Chairman, see a particular 
down side in engaging with Cuba on migration, on drugs, on 
environmental protection, or for that matter, establishing 
military to military relations. I don't think the thing is to 
deal with Cuba as if it were any other country, I think we 
should deal with Cuba as we have dealt with communist 
countries, across administrations of both Democrats and 
Republicans, with our eyes wide open. But on the security 
issues, I don't see a particular down side.
    I also think it is important to point out, I don't believe 
that Cuba is necessarily going to be an ideal partner on all 
these things. We have good cooperation on drug interdiction. 
But that took some time to get going, and there were some bumps 
along the way if you talk to people in the Coast Guard that 
were involved in that.
    Perhaps there was a sense in your question about long-term 
immigration policy. I believe that immigration policy is 
something that should be examined. It is interesting that in 
Miami right now there is some discussion about the need to 
perhaps re-examine our immigration policy. It is unique toward 
Cuba. Cubans come here without a visa and set foot on our 
territory and they are admitted. Within a year, they are 
permitted to move toward legal permanent residence. And from 
the very beginning, they get a lot of government benefits, the 
same package of government benefits that a refugee would get. 
These are people who come without a visa and don't claim or 
meet the standard of having a well-founded fear of persecution 
if they were to return.
    There is some debate in Miami now about whether that should 
continue or not, especially when Cuban Americans are now free 
to travel back and forth. Certainly this policy that we have, 
which is purely at executive discretion, is not something that 
was contemplated in the Cuban Adjustment Act, although it is 
permitted by it. So I think that is something worth looking at.
    Mr. Tierney. Thank you.
    And finally, Ms. Stephens, you note that the Interest 
Section that the United States has in Cuba is not doing some of 
the very ordinary things that their counterparts in foreign 
embassies do. What are they doing?
    Ms. Stephens. What are the people in our U.S. Interest 
Section doing?
    Mr. Tierney. What are they doing, if they are not traveling 
the island, meeting with officials and the normal things that 
you would expect for embassies to do, can you give us some 
observation of what effect they are having and what they are 
doing?
    Ms. Stephens. Well, it sort of depends who is there. The 
current chief of the U.S. Interest Section is Mr. Farrar. He, I 
think, is doing a very good job of having eyes and ears out as 
far as he can go. He is really making a genuine effort to 
understand what is going on within the boundaries of where he 
is allowed to travel on the island.
    When I was last in Cuba, I had a meeting with him at the 
Interest Section and then the next morning ran into him at the 
church across the harbor in Regla. He is clearly trying to 
learn and understand within the limitations he has.
    Others have done it differently. Previous chiefs have put 
up billboards along the highway in front of the Interest 
Section, I am sorry, not billboards, but have put up electronic 
signs, you have probably heard about this, that run news and 
then accusations about the reality on the island that are 
meant, I guess were meant to educate the Cuban population but 
instead embarrassed the United States and infuriated the 
Cubans. So I would say it kind of depends who is there.
    But they definitely have a very limited experience, not 
being able to talk to the Cuban government.
    Mr. Tierney. Thank you.
    Mr. Flake.
    Mr. Flake. Thank you. I appreciate all of the testimony. It 
was very enlightening.
    General McCaffrey, you mentioned, I liked your statement 
that we have truncated and minimized our access to that regime 
and the people in that regime. And certainly that has been my 
experience there, we have no idea who the people in waiting are 
there. That is a bit troubling.
    But one thing that we always hear is, we can't engage with 
a country or we can't allow Americans to travel to a country 
that is one of our listed state sponsors of terrorism. Does 
that give you any pause in making the recommendations that you 
have made to lift the embargo or what-not? Should we be doing 
that to some country that has been identified as a state 
sponsor of terrorism?
    General McCaffrey. I think there are still seven nations on 
State Sponsors of Terrorism. The Cuba piece of it I think is 80 
words, very cryptic. There is probably no current reality to 
that at all. I think in past years, you could have made that 
argument. They were an active threat, 25 years ago, they had 
250,000 troops in Africa, they were very aggressively, with 
covert agents, trying to foment revolutions around the 
Americas. But I don't think that is the case any longer. I 
cannot imagine the Cubans realistically being a threat to our 
national security interests in the short run.
    Now, having said that, again, I think Mr. Peters makes a 
good point, we ought to have a dialog with them with our eyes 
wide open. But clearly, 5 years from today, if we don't know 
who the one star generals and the battalion commanders and the 
key intelligence officers are in Cuba, we have harmed our own 
ability to protect the interests of the American people. We 
have to get down there and engage with them. We ought to have 
influence. We ought to give them something to prize as opposed 
to merely withholding things from their society.
    It seems to me, again, the down side risk is almost non-
existent.
    Mr. Flake. Mr. Pinon, it is often said as well that we 
somehow lend legitimacy to the regime if we take action to 
engage them on issues of national security, drug interdiction, 
migration. Can you comment on that? Do we somehow lend 
legitimacy to that regime?
    Mr. Pinon. I come from the private sector. Early on I 
learned from a former boss of mine that when you read it on the 
front page of the Wall Street Journal, it is too late. So I 
believe in early engagement. Early engagement somehow gets 
misdirected. We are talking about conversations, we are talking 
about dialog at different levels.
    I was just in Cuba 2 weeks ago. I was there at the time of 
the baseball game between Cuba and Japan. Let me tell you, 
people in the street want to engage you. They do want to talk. 
They want to talk about the United States. They want to talk 
about President Obama.
    So I think the fear of engagement, the fear of 
conversation, particularly in the case of Cuba, there is really 
no justification for not having it.
    Mr. Flake. Mr. Peters, do you have any comment on that, as 
far as the legitimacy argument? Is it a moot point after 50 
years that we would somehow lend legitimacy to the regime? That 
is often brought up, I can tell you, in Congress here, should 
we lend legitimacy to that regime at this point.
    Mr. Peters. That seems to me to be a diplomatic issue that 
would be raised in the very early months of a government such 
as Cuba's, when there is doubt as to whether it is going to 
hang on or not. But we are quite a bit past that point, and I 
don't think that issue or any of the variations imply that Cuba 
is on the brink and that whether we engage or not is going to 
change the equation in a decisive way. I don't think any of 
those arguments hold water.
    But more importantly, I think the fact that this issue 
comes up tells us just how far out of the mainstream of 
American foreign policy this policy is. President Reagan 
engaged with the Soviet Union. President Nixon engaged with 
China. Presidents of both parties have engaged with all kinds 
of governments that are not particularly nice and where we have 
very, very vast differences in terms of our security interests 
and our values and about things like human rights practices.
    I don't think that President Reagan's trips to the Soviet 
Union, his walking around Moscow with Gorbachev, anything like 
that, I don't think anyone would say that President Reagan was 
legitimizing the Soviets or their system.
    Mr. Flake. Thank you.
    Mr. Tierney. Thank you.
    Mr. Driehaus, you are recognized for 5 minutes.
    Mr. Driehaus. Thank you, Mr. Chairman. I am sorry I missed 
the oral testimony. I was in a markup in another committee, but 
I appreciate the opportunity to ask a few questions today.
    I notice in your written testimony, General McCaffrey, that 
you noted that Cubans must own and be in charge of the process 
of determining their future political system. And the United 
States can be supportive of that effort.
    How have you seen the attitudes of Cubans on the ground 
change in recent times to suggest that this is a unique 
opportunity to engage and to pursue more open relations? Have 
you seen that? Is there an attitude in Cuba that this is a 
unique time and that we do have a critical opportunity to 
engage?
    General McCaffrey. Well, I would probably say it is more a 
unique time in the United States than in Cuba. For the first 
year of this administration, there is a tremendous openness to 
new thinking, to erasing past mistakes. We have been, I say 
this painfully, discredited in many ways in the international 
community. So I think we have an opportunity to proceed 
unilaterally to change the nature of the debate.
    In Cuba, by the way, years ago, I lose track of time, 1996 
or so, I had 10,000, 15,000 Cubans pulled out of the sea and 
end up under my care in Panama. We had them there really as 
refugee status. I spent a lot of time walking around talking to 
Cubans from all walks of life, from intel officers to military 
officers to business people, to families, whatever. It came 
across to me that there is a general notion that Fidel was a 
national symbol that they admired.
    But almost uniformly, across every aspect of Cuban society 
as I talked to them, they thought that these people had a 
failed philosophical approach, the economics weren't going to 
work, it would never change as long as they were in power. And 
that is why they took grandmother and children and everyone and 
went down to the sea to escape. They were seeking freedom from 
a failed system.
    I don't think there is any support, long-term, among the 
rank and citizens of Cuba for this kind of regime. But I do 
think the power still flows out of the barrel of a gun. Until 
we have engaged in new ideas and opportunities and thinking and 
tourism and engagement of people to people happens, it is 
unlikely that Cuba is going to represent anything but an 
insular prison.
    Mr. Driehaus. Just as a followup to Congressman Flake's 
question regarding whether or not we are legitimizing the Cuban 
government structure and some of their human rights efforts or 
violations by engaging them, can you draw a comparison? I 
appreciate, Mr. Peters, the comparison with the Soviet Union 
and the visits to the Soviet Union. But obviously, we are very 
engaged with China. Are there substantive differences in terms 
of regime, in terms of human rights policies, between Cuba and 
China, such that Cuba is so much worse that we wouldn't engage 
them, versus the types of practices we currently engage with in 
China?
    General McCaffrey. Was that addressed to me, sir?
    Mr. Driehaus. You or Mr. Peters.
    General McCaffrey. I was thinking, with some amusement, I 
have been a negotiator in international arms control and other 
drug policy. I have dealt with a lot of people around the face 
of the earth, many of whom I was thinking throughout the dialog 
that probably the next visit would be from the U.S. Air Force, 
some truly dreadful regimes that we opened dialog because we 
thought it served our interests and our own people. Certainly 
the pre-Balkan-Serbian leadership that was enslaving a lot of 
the region, and for that matter, dealing with the Russians, 
trying to help them get away from their dreadful past, with 
tens of millions murdered by their own political system.
    So I cannot imagine that the United States, notwithstanding 
the damage that has been done to our reputation in the last few 
years by some mis-steps, but I cannot imagine our international 
reputation for our values, for open government, for 
opportunity, for the way in which minorities and women have 
taken their place in our society, it is hard to imagine that we 
would damage that reputation by dealing with the Cubans. It is 
silly, completely silly. We are dealing with the North Koreans, 
for God's sake. They murdered a million of their own people 
through starvation in gulags. They have nuclear weapons. They 
are a tremendous threat to the region. We are dealing, 
correctly, with the Iranians now in a very careful way.
    So I think most of the other panel apparently feels the 
same way. The lack of open dialog, public dialog with the 
Cubans is a huge mistake and needs to be corrected. The window 
might close on us within a year or so.
    Mr. Tierney. Thank you.
    Mr. Fortenberry, you are recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    I would like to return to the question that Congressman 
Flake posed about conferring legitimacy by the potential 
engagement, and look at that through another nuanced 
perspective. Not so much legitimacy on the current regime, but 
the legitimacy in the sense of potentially extending the power 
and authority of the current regime into time if we empower 
them with resources by the types of, well, perhaps more 
aggressive engagement, particularly economically, that you see 
some persons interested in.
    I think that is an important point. Several years ago, 
before coming to Congress, as I was just simply looking at this 
from the perspective of a citizen watching American public 
policy dynamics in the region, it occurred to me that some 
movement in a direction of potential engagement with the 
country seemed reasonable. There seemed to be some opening for 
liberalization in society with differing viewpoints that 
occurred. A number of people took that opportunity and 75 
academics, political scientists, journalists, librarians were 
then thrown into jail, many of them still in jail, several were 
executed, who had tried to leave.
    That was a grave reminder of what we are dealing with here. 
So two questions, conferring legitimacy to the extent that it 
has the risk of extending the brutality of the regime into the 
future, and second, engagement with whom? They could engage 
with us tomorrow. They could throw the door wide open and I am 
sure we would rush through it and embrace them if there was a 
change of perspective and a certain increase of their capacity 
for that society to respect human rights and reevaluate itself 
based upon the fundamental principles that inform the hearts of 
all humanity.
    So I throw that question to all of you, since you all have 
touched on that narrative thread.
    General McCaffrey. I think your concerns are entirely on 
target. My take on it was that first of all, if I thought 
strangling Cuba economically would bring down the regime, it 
might be an appropriate course of action to consider. But it 
hasn't worked. In fact, I think the last time we tightened the 
screws in the last couple of years, a lot of the Cuban American 
community said, yes, let's give it a chance, maybe it will 
work. It hasn't. So you have seen these dramatic changes in 
polling data now, of the Cuban American community, where 
particularly the younger people are saying, this isn't the way 
to go, our families are suffering. We want open access to them.
    I think the mood of the country, by the way, has changed 
dramatically, our country. And they are open now to new 
thinking.
    Another thought, just to offer it. I have participated in 
an awful lot of U.S. efforts to bring somebody to their knees 
through blockades and economic embargoes: Serbia, the Iraqis, 
the North Koreans and others. And it never works. Normally what 
happens is you end up lowering the lifestyle of the broad 
population, Serbia certainly springs to mind, and suddenly 
cigarette smugglers become the wealthiest people in Serbia. So 
you distort the economy, you magnify the control of the 
repressive forces.
    Now, there may be some room for some of that, certainly, if 
we are worried about nuclear weapons. We have to be very 
careful about technology access for some of these regimes. But 
again, it is hard for me to think in my own mind objectively of 
a reason why we don't unilaterally open the floodgates of 
ideas, people, and access to Cuba, and then in the coming 
decade, because I think we are talking about 10 years to re-
integrate Cuba, try and work in a very positive way and not 
determine their future but assist them in thinking through and 
struggling through this issue.
    Mr. Pinon. Your pushback was one that we received at 
Brookings when we put on the table the proposal of somehow 
finding a way that we would de-link Cuba from Venezuela. 
Because our proposal was to open the energy sector. And the 
answer, the pushback was, well, that could certainly have an 
effect in which it would continue supporting the current 
regime.
    So we went through that scenario planning. We did spend a 
least a day and a half on that. We found that it was very, very 
important to find a way to de-link Cuba from Venezuela. The 
first 30 years of the Cuban revolution partly was successful 
because of its dependence on the Soviet Union. For the last 8 
years, Cuba today economically is still going because of its 
dependence on Venezuela.
    Oil development is going to take, Congressman, at least 
anywhere between 3 to 5 years. So it is something that is not 
going to happen overnight. It will take at least 3 to 5 years. 
And Cuba will have to produce at least 200,000 barrels a day in 
order for them to net the same economic benefit that they are 
receiving today from Venezuela.
    So the issue of opening Cuba's energy sector for 
exploration and production for U.S. companies was a way of de-
linking Cuba from Venezuela, because we don't believe that Cuba 
can make its own decisions in the future, depending on 
Venezuela.
    Mr. Tierney. Thank you. If other members of the panel want 
to give a brief response to Mr. Fortenberry's question, we 
would appreciate that. But I know they are going to call votes 
on us again in a second. I don't want to have to ask all of you 
to wait and come back. So Dr. Lee, Mr. Peters, Ms. Stephens, if 
you want to run through that, we will appreciate it.
    Mr. Lee. Opinions on this question that Congressman Flake 
rose really run the gamut. I have heard people within some of 
the communities here in the United States, in Washington, and 
in Miami, arguing that we should simply close down the U.S. 
Interest Section in Havana and simply cutoff all contact with 
Cubans. My view of how to deal with, how to manage the U.S.-
Cuban relationship is very different. As you know, I favor 
increasing, intensifying, deepening law enforcement and even 
intelligence cooperation with the Cubans with respect to the 
issue of the hemispheric drug threat.
    And I think that the more contact that we have with the 
intelligence people, law enforcement people, the Cuban 
military, others that have an interest in containing the drug 
problem, the more we are in a sense getting into the guts of 
the Cuban power structure and the Cuban system. I think this is 
where we need to be in order to be able to, well, I don't want 
to use the word manipulate, but shall we say be in a position 
to creatively observe the transition that is going to be 
occurring very soon as the Castro brothers leave the scene.
    Mr. Tierney. Thank you.
    Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman. To respond to Mr. 
Fortenberry's question, I think it is exactly the right 
question to raise, whether U.S. engagement would extend the 
life of the government in Cuba.
    But I don't think it is in play. We tend to look at a place 
like Cuba, look at the economy there and say to ourselves, God, 
if it was like that in the United States, our government would 
be out. It is easy to mirror image that way, but that just 
hasn't been the case.
    The Cuban economy is not in great shape. The personal 
economies of many families are not in great shape in Cuba. But 
these economic difficulties do not translate into political 
risk for the Cuban government. In 1992 and 1993 when they were 
in the most horrendous economic crisis you can imagine, when 
the Soviet Union disappeared and left them in a ditch, 
nutrition levels, everything just collapsed, that economic 
deprivation did not translate into a threat to the political 
longevity of the Cuban government.
    So at the margin, I don't believe our economic sanctions 
have any discernible impact on the political longevity of the 
Cuban government. At the margin what they do is they stop 
universities from engaging, they stop people from engaging, 
they stop somebody from Miami from getting some help to his 
aunt so that she can repair her house after a hurricane. They 
stop people from sending money that would help somebody 
establish a business, whether legitimate or illegal. They stop 
cultural activities from taking place. At the margin, our 
sanctions stop churches and synagogues from engaging. They stop 
people from being able to send help through religious 
organizations. So at the margin, it is an embargo on American 
influence.
    Finally, I would just invite you to think for a minute, 
though, what would it mean for this policy to work? Because I 
think we are pretty confident that the Cuban government, it is 
a communist government and their convictions are quite deep. We 
have seen that for 50 years. So our sanctions are not going to 
lead them to change their stripes.
    So what would it mean for it to work? Would that mean that 
we would create such terrible economic conditions that the 
Cuban people would have such acute suffering that they would 
see nothing to do but revolt against their government? That to 
me is not likely. Because when the economy gets bad, they think 
about leaving, they don't think about revolting. And that is 
not a criticism, that is just a political fact of life.
    But it gets into, I think, a fairly serious ethical 
question of what would it mean if it would actually work.
    Mr. Tierney. Thank you, Mr. Peters.
    Ms. Stephens, do you have something to quickly offer?
    Ms. Stephens. Yes, very quickly. I just wanted to thank you 
for bringing up the issue of human rights and the question of 
the 75 dissidents who were rounded up in 2003. I was fortunate 
to be in Cuba with Congressman Flake, Mr. Peters, Mr. Delahunt 
and a delegation just a couple weeks before that round-up. We 
met publicly with many of those dissidents and had a very 
valuable and moving encounter with them.
    For me, that is probably the strongest and most important 
experience I have had in Cuba. It very much motivates me to 
want to try something new in terms of U.S. policy in order to 
prevent things like that from happening. For me, that is an 
example of how our current policy isn't having any impact at 
all in helping these people.
    Mr. Tierney. Thank you, Ms. Stephens.
    Mr. Delahunt, you are recognized for 5 minutes.
    Mr. Delahunt. I thank the gentleman. I see that Mr. Issa is 
here, I know he is a member of the committee, I obviously would 
defer to him if he wishes to proceed.
    Mr. Tierney. Mr. Issa, member of the full committee.
    Mr. Issa. I am on a leave of absence from Foreign Affairs 
and miss it deeply.
    Mr. Delahunt. We note your absence, Mr. Issa, and some of 
us miss you, too. [Laughter.]
    Mr. Issa. Thank you. As they say, the heart grows fonder 
the longer I am away from the committee. And this is an 
important committee hearing, because I believe it does sort of 
cross foreign policy and foreign security.
    Let me go through a couple of quick questions. Ms. 
Stephens, is there any basis, not based on a change in policy, 
but based on your past experience, including going there, 
meeting with dissidents, sort of playing up the good of what 
could be, and then seeing them arrested and/or killed and put 
away for a long time without trials, is there any reason to 
believe that the Castro regime would change if there were no 
quid pro quo at the time of opening relations, but rather, we 
open relations unilaterally, effectively said we have been 
wrong for 50 years, and you don't have to do anything in return 
for a lift of the travel ban, etc?
    Ms. Stephens. I think you have gotten right to the 
question. First of all, the Cubans will never sit down to talk 
with us if the pre-condition of sitting down has anything to do 
with us telling them that they should change their system, that 
they should release their prisoners, anything of a domestic 
political nature. They are just not going to do it. So that is 
a non-starter.
    Mr. Issa. Let me follow up with that, because that is 
probably the crux to my question. They are members of the 
United Nations, they are a signatory nation to almost every 
agreement that has come down the pike since Jesus was a 
corporal. I think they are probably in Kyoto. And since they 
only seem to burn organic leftovers most of the time, or import 
their oil, I guess they are compliant.
    They have signed everything, they have obeyed nothing. 
Isn't it reasonable for the United States, as part of our 
engagement and any liberalization that would benefit them, if 
you will, at our expense, isn't it reasonable to ask them to 
obey, not to change their own laws, but to obey international 
law, particularly in the many, many places where they are 
signatories?
    Ms. Stephens. Yes.
    Mr. Issa. So there are some things that we could put in as 
effective preconditions, as long as they are not our conditions 
or their domestic policy, but rather international law which 
they claim to abide by?
    Ms. Stephens. I just think if we could take a deep breath 
and decide that it is in our interest to just sit down with 
them, to skip the precondition notion, just sit down at the 
table----
    Mr. Issa. Congressman Flake sat down with them. They have 
had that. There can be no higher calling. He did his mission 
elsewhere, but he came back to do Fidel.
    Ms. Stephens. Could I just say one thing about that, 
because we also spent a lot of time visiting with diplomats 
from other countries who do have relations with the Cuban 
government. For me, that is where the model exists.
    Now, I am not saying, obviously, that they have changed, 
through their great conversations with the Cuban government, 
that they have changed the country from being communist. But 
they have had some successes in quiet discussions about 
specific human rights cases and specific political prisoners. I 
think that is a way to start.
    Mr. Issa. I appreciate that, and I have been involved in 
that. I am fortunate enough to be on the Helsinki Commission 
and we try to look at that globally.
    Mr. Pinon, assuming we were to allow U.S. oil companies to 
drill in the region or engage in any other way, what good faith 
belief do we have that they would not, at the appropriate time 
in their best interests, nationalize our resources as Hugo 
Chavez has done, or as they did before and still owe countless 
billions to us over it? Is there anything under the current 
regime that would cause us to think that could likely occur 
again and it wouldn't be completely consistent with their 
communist form of government?
    Mr. Pinon. No, and that is why I said earlier, when we went 
through our scenario planning, we made a point, and I make a 
point again in my testimony that this process takes anywhere 
between 2 to 5 years before any oil can come to production. So 
the assumption, when we went through our recommendation at 
Brookings, was that within that 5-year period there would be a 
movement in Cuba already in which the transition or a new cadre 
of leadership will be in place. Again, hopefully that will help 
them to divorce themselves from the dependence on Venezuela.
    So again, what we are talking about is nothing that will 
bring an immediate economic benefit to the Cuban government, we 
are talking about 3 to 5 years. Is there risk of 
nationalization? Yes, it is there.
    Mr. Issa. Mr. Chairman, I would appreciate just very 
quickly, if they can't answer directly, for the record, I would 
ask the question, which is, in light of those questions and 
current government, then is your common recommendation that 
even if the U.S. Government does not lift sanctions and so on, 
that an engagement with a plan for the change that is likely to 
appear or occur is in our best interests based on, if you will, 
the 5-year horizon that you referred to?
    Mr. Pinon. Yes.
    Mr. Issa. Is that pretty consistent across the board that 
is a common recommendation that we should take away from today?
    Mr. Tierney. If we could just please keep it brief so that 
we don't have those votes called down.
    Mr. Peters. You say they might nationalize our resources. I 
am not interested in seeing the U.S. Government being involved 
at all. And I think that American companies, if they choose to 
get involved, would have to weigh the risks and risk the loss 
of their resources in a country where the economic policies 
present that risk. There is no doubt about it.
    General McCaffrey. In fact, what I think I would add to 
that, I don't see us in this coming phase negotiating changes 
in Cuba so much as unilaterally lifting the economic embargo, 
people access, initiating law enforcement cooperation, and not 
blocking them from being buffered by being part of 
international organizations. I think the negotiations, whether 
we do them or not, are almost irrelevant until Fidel and Raul 
are gone, until we get the 40 somethings in government, we 
shouldn't expect dramatic change in Cuba.
    But certainly the wash of U.S. ideas, influence and 
tourists, in my view, will help set the pre-conditions for 
those ultimate negotiations.
    Mr. Issa. I appreciate that. Mr. Chairman, for the record, 
it was Admiral Aldo Santa Maria that I was referring to in my 
opening remarks.
    Mr. Tierney. We just want to thank you for living up to 
your opening remark that you would be brief. We appreciate 
that. We will know what to expect in the future.
    Mr. Delahunt.
    Mr. Delahunt. Yes, Mr. Chairman, an excellent hearing. I 
congratulate you and the committee on this hearing.
    I am just going to make some observations and then invite 
response if there is sufficient time. I will make an effort to 
be brief.
    I noted that, I think it was General McCaffrey that talked 
about the need for military to military contacts. Every single 
commander of SOUTHCOM that I have discussed this with, and they 
have made public statements, have echoed that particular 
sentiment. General Wilhelm, General Pace and General Jack 
Sheehan all recommended instituting military to military 
contact. I think it is important to get that on the record.
    And I would also note for the record that the dissidents 
that we met with and that were alluded to by Ms. Stephens, 
every single one of them today, some having been released 
because of humanitarian concerns, many of them still 
incarcerated in the Cuban prison system, advocate for change of 
the current policy. And specifically advocate for change in 
terms of Americans' rights to visit unrestricted and 
uninhibited to Cuba. I think that is very important, and that 
we should listen to those particular individuals.
    When it comes to human rights, naturally we share the 
concerns. I think the question by Mr. Driehaus went to that 
issue. But I would also note that we have relationships with 
other nations, in fact, some are our allies, where I would 
submit that their human rights record is worse in fact than 
that of the Cuban government in terms of how we define human 
rights. I have been to Cuba, I have been to church there, I 
have gone to Mass there. There is a vibrant, healthy Jewish 
community there. Clearly, the Catholic Church in Cuba has a 
strained relationship with the government, but one can wear a 
cross, one can wear a Star of David in Cuba. You cannot do that 
in Saudi Arabia. There is in fact a religious police in Saudi 
Arabia. When President Bush, and I am referring to President 
George Herbert Walker Bush, had to go to an aircraft carrier to 
celebrate a Christian service in terms of celebrating 
Christmas.
    And by the way, I can assure you that women can drive in 
Cuba. They cannot drive in Saudi Arabia. And there are no 
independent unions, and the list goes on and on and on. So I 
think it is very important to understand that.
    If we are going to measure engagement with other nations 
predicated on the human rights record, we would find ourselves 
having to terminate diplomatic relationships with a long list 
that we currently deal with. I think in particular of 
Uzbekistan, where our own human rights record indicates that 
Islam Karimov has instructed human beings to be boiled alive. 
So I think we have to understand that.
    And the state-sponsored terrorism issue, and how do they 
get there, I posed that question a while back. It was 
interesting to discover that the primary motivation for the 
placement of Cuba on that particular list was because in Cuba, 
there are members of the Basque Separatist organization. I then 
went on to learn, however, that was done at the request of the 
Spanish government. So maybe that whole issue should be 
revisited.
    But I would like to speak specifically to the issue of 
drugs. Mr. Peters and I first met at a conference in Havana on 
drug interdiction. The reality is, if there is an area that 
they and we share a mutual interest, it is in dealing with the 
issue of drugs. I would invite a response from Mr. Lee or 
General McCaffrey about drugs.
    I can remember there was a case in Florida where 
cooperation, it was a case involving the seizure of a ship, 
where Cuban agents came and testified and there was a 
conviction. The ship was the Lemur, if you remember, General 
McCaffrey.
    And by the way, I have never heard of this particular 
Admiral before, and I think it was Mr. Lee who indicated that 
the narcotics laws are draconian. Any good police state is 
going to be very, very careful in terms of allowing drugs to be 
sold or purchased or even a transit venue for interdiction 
here.
    I cannot imagine why we have not formalized a drug 
agreement with Cuba at this point in time. We are doing a 
disservice to ourselves. We are doing a disservice to our own 
people. I would invite, I guess particularly General McCaffrey 
to respond to the drug issue. I have heard again and again from 
some individuals that Cuba is a narco-terrorist state. That is 
pure baloney.
    General McCaffrey. You probably summarized my own arguments 
pretty well. It was interesting to watch the animosity develop 
between me and selected Members of Congress over just that 
issue. Again, I tried to go to every source of intelligence I 
could find. There is no question in my mind that there is 
corruption at times in the Cuban government and incompetence. 
There is no question that there are lots of drugs floating 
around Cuba, particularly washing up on shore, bundles of 
cocaine and marijuana.
    But it was clear to me that they were not on a governmental 
basis, and part of an international conspiracy that would 
threaten the regime, threaten their sense of communist 
morality. I did get a Coast Guard element into Cuba over 
tremendous hew and cry, I think three of them. One of the panel 
members mentioned, I went on a night-time walk with that Coast 
Guard officer who knew more about what the Cuban people were 
thinking and talking about than a dozen of the folks in the 
Cuban Interest Section in Havana, because he was out, he would 
walk his dog and they would approach him and ask him about the 
latest thing over Radio Marti.
    So again, I think your point is right on track. Our 
interests are served by law enforcement cooperation, not just 
interdiction, on human trafficking, trafficking in human 
beings, in drugs and terrorism. I expect the Cubans would find 
that to be an open option.
    I think the other thing, on SOUTHCOM to Cuban military 
dialog, not too much of it. Not too much training. But clearly, 
dialog on peacekeeping operations and on international 
humanitarian operations and others, certainly at their officer 
corps level, would be a great investment in our future. I would 
bring some of them into our schooling system, get two of them 
to go to Leavenworth. The first 5 years, they would all be 
intel people, but eventually they would get jealous and some of 
the comers would get the slot.
    So dialog, engagement on areas of mutual interest, that 
will work.
    Mr. Tierney. Thank you. Thank you, Mr. Delahunt, for your 
contributions to this record. We appreciate it, as well as your 
skill of asking a 5-minute question and eliciting an answer 
afterwards. We will all take note of that. [Laughter.]
    We have no further questions for the panel here. I want to 
give each one of you an opportunity, however, to make a last 
remark, if there is anything you feel has been left unsaid. You 
don't need to make a remark, but I don't want anybody to leave, 
after having invited you here and made you wait, we want to 
make sure you have commented on everything you thought was 
relevant for this committee to hear.
    So Ms. Stephens, do you have anything to add? It is almost 
irresistible, isn't it? [Laughter.]
    Ms. Stephens. Yes, I have to say something. I think one 
thing that is so clear to me, when we are in Cuba, is that the 
notion that our embargo is somehow crippling the Cuban economy 
is just, it isn't right. What we instead have done is created a 
void that has been filled by everybody else. It has been filled 
by Venezuela, Brazil, Russia, China, Europe. So in that sense, 
it is just not working. And in fact, we are ceding that space 
to others, and losing the opportunity to have influence on the 
island.
    So I guess I just wanted to reiterate that.
    Mr. Tierney. Thank you.
    Mr. Peters, last thoughts?
    Mr. Peters. Thank you, Mr. Chairman.
    I listened to some of the comments about concessions and 
reciprocity. I would address them as follows. I think clearly 
we are in a 50-year adversarial relationship with Cuba. It 
could be we will get to a point in the relationship where there 
is a negotiation and one side won't give unless there is a 
concession from the other. Given the fact that the embargo is 
in place, and I don't see that changing for some time, I think 
that if people are concerned about leverage, that is there.
    But I see the situation somewhat differently. What is at 
issue now, I think, is not a concession of the Cuban 
government, but concessions to ourselves. We are sort of like a 
chess player that has been playing for a long time getting 
nowhere and deciding to use a different gambit. When one 
changes, you don't do it and demand that the other side make a 
concession to you. You do it to become more effective.
    We don't have influence in Cuba. We don't have contacts in 
Cuba. We have a lot of issues, those we mentioned here, the 
drug issue, the environmental issues, the fact that Cuba has a 
lot of fugitives from U.S. justice. And we need to get into the 
game and start addressing those things, change the policy to 
make a concession to ourselves.
    Mr. Tierney. Thank you.
    Dr. Lee, last note?
    Mr. Lee. Well, certainly, I agree with General McCaffrey 
and others that we need to engage the Cubans on law 
enforcement, intelligence issues of mutual concern.
    I did want to add something, just a couple of comments 
about the Cubans, their internal drug control program, which 
has been highly successful, at least according to the Cuban 
authorities themselves. When I was in Cuba last year, I talked 
to one Cuban medical professional. He said that between 1999 
and 2003, the price of a gram of cocaine increased from $15 a 
gram to $90 a gram. He attributed this to a number of different 
policies, but especially their laws, which, in 1988, the 
maximum penalty for drug abuse in Cuba, rather for drug 
trafficking in Cuba, was 7 to 15 years in prison. Today, the 
maximum penalty is 20 years to life. So what we are talking 
about here is a regime which is really very, very serious about 
controlling this problem.
    I think given their interest and given their concern, I 
think it makes a lot of sense for us to try to find some way to 
cooperate with them in some fairly creative ways. For example, 
we could conceivably even train Cuban border guards, Ministry 
of Interior operatives in various areas of drug control. We 
could conduct joint naval patrols in the Caribbean with the 
Cubans. We could coordinate investigations of regional drug 
trafficking networks and suspicious financial transactions 
going through Cuba.
    We could do a lot of different things and I think we have 
to talk about this, even now, even before the Castro brothers 
leave the scene.
    Mr. Tierney. Thank you very much, Dr. Lee.
    Mr. Pinon.
    Mr. Pinon. I am the only Cuban American on the panel. I am 
an historico, I came here in 1960. My parents died in their 
90's in Miami waiting to return to Havana tomorrow. I am 61 
today. Like the rest of my generation in Miami, at least the 
majority of my generation in Miami, we, Mr. Chairman, Cuban 
Americans, are willing to sit down and talk. Because we believe 
that the death of my parents wasn't necessary, if we would have 
established conversations with Cuba a while back.
    Thank you.
    Mr. Tierney. Thank you. Happy birthday, and thank you for 
sharing your day with us.
    General, by virtue of your rank, you have the final word.
    General McCaffrey. Thank you for the opportunity to be 
here.
    It is a great book, and I mentioned to your director, I 
think it was S.L.A. Marshall's Battles in the Monsoon. It is 
something I used talking about combat leadership. Young major 
commanders in a ferocious fight for 2 days. He continues in his 
own mind being engaged by the North Vietnamese Army and they 
have gone for 3 days.
    So I tell people, you have to watch, you have to have a 
broader perspective than the immediate fight at hand. The 
American people, as Mr. Pinon has admirably said, have changed 
their view on how to deal with the Cuban regime. This is not 
serving our self-interest. This is time to seize an opportunity 
and not let this drift along for another 2 or 3 years.
    We have a terrific foreign policy team in office now, 
Secretary Clinton and others. It is time to engage.
    So thank you again for the chance to be here and join this 
panel.
    Mr. Tierney. Thank you.
    Thank you, Mr. Flake and Mr. Delahunt, for your leadership 
on this issue, my colleagues on the panel. Thank all of you for 
your testimony here today and sharing your wisdom with us. 
Meeting adjourned.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
